                                               OFFICIAL USE ONLY
DOE F 1325.8
(08-93)
United States Government                                                                Department of Energy


Memorandum
        DATE:    January 31, 2007                              Audit Report Number: OAS-L-07-06
    REPLY TO
     ATTN OF:    IG-34 (A06TG041)

SUBJECT:         Evaluation of the "Office of Science's Implementation of the Federal Information
                 Security Management Act"
           TO:   Under Secretary for Science, SC-1


                 INTRODUCTION AND OBJECTIVE

                 To accomplish its mission of delivering discoveries and scientific tools that
                 transform the understanding of energy and matter and advance national economic
                 and energy security, the Office of Science (Science) utilizes numerous
                 information systems. Given the importance of the information maintained by
                 Science, a strong cyber security program is essential for protecting its operational,
                 personally identifiable, and other sensitive data from compromise. In Fiscal Year
                 2006, Science expended over $14 million of the Department's $295 million cyber
                 security budget to protect its information technology resources.

                 In September 2006, as required by the Federal Information Security Management
                 Act (FISMA), the Office of Inspector General completed its annual independent
                 Evaluation of the Department'sUnclassified Cyber Security Program- 2006
                 (DOE/IG-0738, September 2006) to determine whether the Department's
                 unclassified cyber security program adequately protects data and information
                 systems. Because specific information supporting the unclassified cyber security
                 report are generally considered sensitive and not for public dissemination and as
                 requested by Department officials, we compiled this report to provide details
                 related to specific vulnerabilities. We initiated this evaluation to determine
                 whether Science's unclassified cyber security program adequately protected data
                 and information systems.

                 CONCLUSIONS AND OBSERVATIONS

                 Over the last few years, Science has implemented a number of measures to
                 improve its management of cyber security risks and vulnerabilities. For instance,
                 in 2004, Science's Office of Information Technology Management, in conjunction
                 with the Office of Independent Oversight began conducting field site visits -
                 known as Site Assistance Visits (SAVs) - to help identify and resolve cyber
                 security problems. These SAVs were designed to identify gaps in compliance and
                 improve policies, procedures, and processes at each site to ensure alignment with



                                               OFFICIAL USE ONLY
                             OFFICIAL USE ONLY


FISMA and National Institute of Standards and Technology (NIST) requirements.
During our 2006 review at five Science field sites included in the SAV process,
we noted that progress had been made in strengthening the cyber security program
and improving the level of compliance with Federal directives and standards.

While the efforts were significant, our evaluation revealed problems with
certification and accreditation, risk assessments, contingency planning, and
security controls. We also noted that Science's Program Cyber Security Plan
(PCSP) revision had not been completed as requested by the Department's Office
of Chief Information Officer.

                          Certification and Accreditation

During this year's evaluation, we found that four sites had not completed or
adequately performed all required certification and accreditation (C&A) activities.
For example, Fermi National Accelerator Laboratory (Fermi) had not completed
the C&A process for its general support systems and other major applications,
including the Mass Storage System. Prior to our field work, a SAV had been
conducted and Fermi began to modify its C&A documentation to comply with
NIST guidance. At three other sites (Lawrence Berkeley National Laboratory
(Berkeley), Oak Ridge National Laboratory (ORNL), and Argonne National
Laboratory (Argonne)), specific detailed activities required by guidance
promulgated by Science and NIST had not been performed or had not been
documented. Based on our testing, we noted that:

       *       Accreditation boundary information at Berkeley and ORNL lacked
               sufficient detail to identify all system components and determine
               the scope of certification and accreditation. These two sites had
               not documented system boundaries for any of the systems included
               in our review.
       *       Security plans were incomplete or missing critical elements at two
               sites. Specifically, some of ORNL's security plans were not signed
               by officials and did not document system interconnections. In
               addition, Argonne's individual certification packages lacked
               documentation of risk assessments and security plans that laid out
               each group of systems' operational differences and risks, including
               system interconnections and controls specific to the applications
               and systems.
       *       At three sites, evaluation and testing of information systems
               security controls for accreditation of systems either had not been
               adequately performed or had not been documented. In particular,
               Argonne lacked individual certification packages that contained
               documentation of system control testing and evaluation for controls
               specific to system groups. At ORNL, security controls testing and
               evaluation was not performed in accordance with the controls

                                         2

                             OFFICIAL USE ONLY
                             OFFICIAL USE ONLY

               outlined in NIST Special Publication (SP) 800-53, Recommended
               Security ControlsforFederalSystems. Although various system
               tests were run for ORNL's groups of systems, these did not include
               testing of minimum security controls recommended for a system as
               outlined in NIST SP 800-53. Finally, at Berkeley none of the
               systems had documented security control test plans.

        *      At Berkeley, annual self-assessments had not been performed for
               any of the six systems included in our review. Self-assessments,
               required annually by FISMA, provide a method for agency officials
               to determine the current status of their information security
               programs and, where necessary, establish targets for improvement.
        *      Finally, ORNL had not performed a system-specific risk
               assessment for any of its three enclaves.

Subsequent to our review, officials at Fermi and Argonne informed us that
corrective actions had been initiated. According to officials at Fermi, the site's
Chief Information Officer had completed the documentation required for the C&A
process and a review of this documentation was started by an independent expert.
Also, Argonne indicated that it plans to conduct an independent assessment by
June 2007 to meet the evaluation and testing of security controls requirement.
The remaining sites indicated that they would begin corrective actions.

                                Risk Assessments

Although most Science sites reviewed had performed risk categorization
assessments, three sites had not performed these assessments in accordance with
NIST requirements. These sites (Oak Ridge Office (Oak Ridge), Chicago, and
Fermi) used a broad grouping or "enclave" approach to complete C&A of its
systems and grouped low risk systems with those requiring higher protection
levels. Particularly, information systems at these sites were inappropriately
assessed as low impact; however, the systems contained information that
inherently required a higher level of protection. Oak Ridge and Chicago assigned
a security categorization of low for its general support systems - a rating which
did not properly reflect the moderate or high impact level of risk for supported
application systems. In spite of NIST guidance to the contrary, Fermi assigned a
security level category of low for a major application. A lower security category
could potentially affect the selection, implementation and testing of security
controls used to protect Federal financial information and resources. Officials at
Oak Ridge and Chicago indicated that corrective actions had started.

                              Contingency Planning

Five Science sites - Chicago, Argonne, Berkeley, Oak Ridge, and ORNL - had
not taken the action necessary to ensure that their systems could maintain or
resume critical operations in the event of emergency or disaster. Specifically:



                                        3

                             OFFICIAL USE ONLY
                              OFFICIAL USE ONLY

           S Contingency plans for systems at Chicago lacked a documented
             sequence to restore systems and system components in the event of
             a service interruption or disaster.

       *       Testing of contingency plans was not performed at four sites -
               Berkeley, ORNL, Oak Ridge, and Argonne. At Berkeley, testing
               was not performed for any of its six systems. Oak Ridge and
               ORNL each had not performed testing for at least one of their
               systems, Information Resource Management Division at Oak Ridge
               and Enterprise Resource Planning System at ORNL. In addition,
               Argonne had not tested the contingency planning for any of the
               three systems we reviewed.

       *       Individual systems located at Argonne lacked documentation of
               disaster recovery plans.

Without adequate contingency and disaster recovery planning, recovery from
unforeseen and unplanned events could delay restoring critical operations or
potentially lead to the loss of sensitive information. Each of the sites above stated
that corrective actions were underway or would be initiated shortly.

                                  Security Controls

Weaknesses in security controls were identified at four Science sites during this
year's evaluation. Controls in this area consist of configuration management and
access controls designed to protect computer resources from unauthorized access,
which could lead to modification, loss, or disclosure of data. At Chicago and Oak
Ridge, we found outdated or unpatched versions of application and operating
system software. Also at Chicago, we noted weak or easily guessed passwords for
system access that were not in compliance with Departmental policy. These
vulnerabilities were resolved immediately after identification, and as such, were
not reported as weaknesses needing corrective action in our Evaluation of the
Department Unclassified Cyber Security Program- 2006 (DOE/IG-0738,
September 2006).

Similar to our findings, the Office of Independent Oversight found weak patch
and password management enforcement at two other Science sites, Ames
Laboratory and Stanford Linear Accelerator Facility. Without adequate
management of security controls, there is an increased risk of unauthorized access.

SUGGESTED ACTIONS

Science is moving forward in improving its cyber security management with its
expansion of the SAV program and planned revision of the PCSP. We encourage
Science to release their updated PCSP as soon as reasonably possible to provide
direction to all Science sites consistent with current Federal requirements.
Specific recommendations were provided to field sites to correct deficiencies


                                          4

                              OFFICIAL USE ONLY
                                   OFFICIAL USE ONLY

      noted during our evaluation. To enhance its cyber security improvement efforts,
      we suggest that the Under Secretary for Science require responsible officials to:

             (1)    Ensure that the C&A process for assessing and selecting the
                    security categories is appropriate for the protection of Federal
                    financial resources in compliance with NIST requirements; and,

             (2)     Ensure that deficiencies noted in contingency planning and security
                     controls are corrected in a timely manner.

      Since no formal recommendations are being made in this report, a formal response
      is not required. We appreciate the cooperation of your staff during this audit.




                                           Ricke R. Hass
                                           Assistant Inspector General
                                             for Financial, Technology, and Corporate Audits
                                           Office of Audit Services
                                           Office of Inspector General

      Attachment

cc:   Audit Liaison Team, SC-32.1
      Program Analyst, Office of Security Assistance, HS-81




                                              5

                                  OFFICIAL USE ONLY
                                                                                 Attachment

SCOPE AND METHODOLOGY

The audit was performed between February 2006 and January 2007 at several Office of
Science (Science) locations. To accomplish the audit objective, we:

    *   Reviewed applicable laws and directives pertaining to cyber security and
        information technology resources such as Federal Information Security
        Management Act (FISMA), Office of Management and Budget (OMB) Circular
        A-130 (Appendix III), and the Department of Energy (DOE) Order 205.1;

    *   Reviewed applicable standards and guidance issued by National Institute of
        Standards and Technology (NIST);

    *   Reviewed Science's overall Cyber Security Program management, policies,
        procedures, and practices throughout the organization;

    *   Assessed controls over network operations and systems to determine the
        effectiveness related to safeguarding information resources from unauthorized
        internal and external sources; and,

    *   Evaluated selected field sites in conjunction with the annual audit of the
        Department's Consolidated Financial Statements, utilizing work performed by
        KPMG LLP (KPMG), the Office of Inspector General (OIG) contract auditor.
        OIG and KPMG work included analysis and testing of general application
        controls for systems as well as vulnerability and penetration testing of networks.

We also evaluated Science's implementation of the Government Performance and
Results Act and determined that it had established performance measures for unclassified
cyber security. We did not rely solely on computer-processed data to satisfy our
objectives. However, computer-assisted audit tools were used to perform probes of
various networks and drives. We validated the results of the scans by confirming the
weaknesses disclosed with responsible on-site personnel and performed other procedures
to satisfy ourselves as to the reliability and competence of the data produced by the tests.

This evaluation was conducted in accordance with generally accepted Government
auditing standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. We discussed
the contents of this report with a Science representative on January 11, 2007.
